             OFFICE OF
      THE INSPECTOR GENERAL
 SOCIAL SECURITY ADMINISTRATION


RESOLVING ISSUES IDENTIFIED DURING THE
  SOCIAL SECURITY ADMINISTRATION’S
           QUALITY REVIEWS
    OF DISABILITY DETERMINATIONS

         April 2012   A-01-11-11119




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      April 26, 2012                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Resolving Issues Identified During the Social Security Administration’s Quality Reviews
           of Disability Determinations (A-01-11-11119)


           OBJECTIVE
           The objective of our review was to assess the Social Security Administration’s (SSA)
           Request for Program Consultation (RPC) process used in quality reviews of disability
           determinations.

           BACKGROUND
           In Fiscal Year (FY) 2010, the State disability determination services (DDS) adjudicated
           over 4 million Disability Insurance and Supplemental Security Income claims for SSA. 1
           During the same year, SSA’s Office of Quality Performance (OQP) reviewed over
           500,000 claims, as required by the Social Security Act. 2 Because the average expected
           lifetime benefit is about $260,000 for an individual approved for Disability Insurance
           benefits in 2011, OQP plays an important role in preventing improper payments. 3 If
           OQP finds a disability claim is deficient (incorrect or inconsistent with SSA policy), it
           returns the claim to the adjudicating office to change the determination or obtain
           additional evidence. SSA uses RPC to address disagreements between the Disability


           1
             SSA provides Disability Insurance and Supplemental Security Income payments to eligible individuals.
           Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq. DDSs
           are State agencies that determine disability under SSA’s criteria in each of the 50 States plus the District
           of Columbia and Puerto Rico. Social Security Act §§ 221 (a)(2) and 1633 (a), 42 U.S.C. §§ 421 (a)(2)
           and 1383b(a). See also 20 C.F.R. §§ 404.1603(a) and 416.1003(a). There are also SSA units that assist
           the DDSs with processing disability claims. These units are located in each of SSA’s 10 regions plus 3 at
           SSA Headquarters—the Offices of Medical and Vocational Expertise, Disability Operations, and
           International Operations.
           2
               Social Security Act §§ 221(c) and 1633(e), 42 U.S.C. §§ 421(c) and 1383b(e).
           3
             SSA’s Actuary estimated the present discounted value of expected benefits for an average disabled
           worker award in 2011 was about $130,000 from the Disability Insurance Trust Fund and $130,000 from
           the Medicare Trust Fund.
Page 2 - The Commissioner


Quality Branches (DQB) in the OQP regional sites and the adjudicating offices (that is,
the DDSs and Federal units). (See Appendix B for more information on SSA’s quality
reviews of disability determinations and examples of deficiencies.)

Before the Agency created RPC, SSA handled disagreements through a rebuttal
process in OQP. In this process, the adjudicating office was required to undertake any
additional development OQP requested before submitting a rebuttal to the office that
cited the deficiency. The adjudicating office could also appeal the rebuttal decision to
OQP headquarters. However, this process was time-consuming, sometimes taking
months to resolve disagreements. Additionally, OQP was not required to routinely send
these cases to policy components to review, so there was no determination whether the
outcomes complied with SSA policy nor was there any mechanism to identify policy
trends.

                            In September 2006, SSA began using the RPC process in the
    RPC Objectives          Office of Disability Programs (ODP) to resolve disagreements
                            with deficiencies cited by OQP. 4 The ODP response to the
RPC is SSA’s official final resolution for all fully electronic case disagreement issues.
SSA designed RPC to

•     improve the accuracy and consistency of decisionmaking by disability adjudicators;
•     identify issues that require program consultation, training, or retraining;
•     identify case situations and issues in which disability program policy cannot be
      applied in an operationally realistic manner;
•     identify and rescind deficiencies incorrectly cited by OQP;
•     ensure a reliable and credible quality review system by providing an independent
      review of deficiencies by an impartial body; and
•     protect claimants, beneficiaries, and SSA’s disability programs from incorrect
      determinations. 5

Under the RPC process, if the adjudicating office disagrees with any OQP-cited
deficiency, it may submit an RPC to ODP for resolution. ODP review of the RPC is
generally limited to the issues cited as deficiencies by OQP and contested in the RPC.
ODP will not assign a new deficiency. The adjudicating office may request resolution of
all related issues cited or commented on in the OQP error citation and discussion.

ODP assigns RPCs to an RPC team member (the reviewer) who reviews the case,
researches any issues and references, and evaluates rationales from the adjudicating
office and OQP. Review of the RPC includes reading all documents in the case file and
preparing a summary of all the evidence and a list of central policy issues for staffing.


4
  RPC began as a pilot in the Boston and Denver Regions in September 2006. SSA completed national
rollout of the process in December 2007, with the first month of full implementation in January 2008.
5
    SSA, POMS, DI 30007.100 A (effective November 3, 2010).
Page 3 - The Commissioner


As necessary, other medical, vocational, or policy experts or specialists may be
involved. The reviewer documents any discussions with medical or vocational experts
in the ODP response to the RPC.

The RPC review determines whether the adjudicating office and the OQP field site
followed appropriate policy and/or procedures for the disputed issues. The RPC team
also determines whether the development, documentation, decisionmaking, and case
explanations related to the area(s) of disagreement were reasonable based on
applicable policies and procedures when considering the specific facts of the case.
RPC accomplishes this by staffing each case to resolve case-specific policy and
procedural questions as expeditiously as possible.

                           Staffing begins with a presentation of the disagreements and
 RPC Case Staffing         case facts, including all medical evidence and any other
                           evidence in the file, by an RPC team member who has
reviewed the case in detail. ODP designed the staffing presentation to permit anyone
attending to quickly grasp the key evidence and policy and procedural issues of the
case without personally making an extensive review of the case. Representatives from
ODP, OQP, and the Office of Disability Determinations (ODD) work with the RPC team,
and other components may participate by sending representatives to the staffing.

The RPC staffing process should not readjudicate the claim. After review of all
available evidence, the team asks the following questions to determine whether the
adjudicating office and the OQP field site followed policy and procedures.

1. Does policy support the DDS (adjudicating office) determination to allow/deny?
   If yes, RPC supports the adjudicating office.
   If no, then:

2. Does policy support the OQP decisional/documentation deficiency?
   If yes, RPC supports OQP.
   If no, then:

3. What is the correct policy resolution?

Although consensus by all participants is the ultimate goal, the RPC team makes the
final determination as to error citation and case actions. If the RPC team cannot reach
consensus, the RPC team supervisor makes the final determination.

After the RPC team resolves all case issues, ODP prepares the RPC Resolution, which
addresses all issues identified in the RPC referral, including corrective action(s) the
adjudicating office must take. It affirms or rescinds any OQP-cited deficiency
questioned by the adjudicating office. Additionally, the RPC Resolution comments on
any other related issue(s) and addresses any issue(s) to be directed to appropriate
policy, training, or other staff for further review or action.
Page 4 - The Commissioner


ODP inputs all information about the case and the outcome into the RPC database and
notifies the appropriate components of the RPC resolution by email.

    Methodology for            For this review, we obtained information regarding the RPC
    OIG Review                 process and its effect on SSA’s disability programs by

•    reviewing claims that went through the RPC process in FY 2010; 6
•    interviewing RPC staffing participants, including ODP, OQP, and ODD; and
•    contacting the DDSs, Federal units that make disability determinations, the Centers
     for Disability in each regional office, and the regional OQP sites.

(See Appendix D for additional information on our scope and methodology.)

RESULTS OF REVIEW
The RPC process has improved the way SSA resolves disagreements with deficiencies
cited by OQP and provided opportunities to improve policy. However, based on
feedback from stakeholders, SSA should enhance the process.

BENEFITS OF RPC

Some examples of how the RPC process has improved the way SSA resolves
disagreements with deficiencies cited by OQP include the following.

•    Decreased Time - The RPC process decreased the time it takes to resolve
     disagreements with deficiencies. The former rebuttal process sometimes took a
     long time to resolve. From FYs 2008 through 2011, adjudicating offices spent an
     average 12 days preparing a case for RPC, and RPC issued its decision in an
     average 7 days. 7
•    Third-Party Resolutions - an impartial third party in ODP, rather than between the
     adjudicating office that made the determination and the OQP office that cited the


6
  Our review of FY 2010 RPC cases found two instances where RPC agreed with the allowance
determination but instructed the DDS to change the date disability began. However, these cases were
not returned to the DDS to make the changes. In one case, disability was established as of
September 2009 but should have begun in December 2007. Because of our review, SSA corrected this
case in September 2011 and issued $11,069 in retroactive benefits. In another case, disability was
established as of May 2007 but should have been several months later. As of April 2012, SSA was still
reviewing this case. SSA policy is to pay a claim that has been allowed but has an onset deficiency being
appealed by the adjudicating office. Once the correct onset is established, the claim should be returned
to the adjudicating office for correction, but this does not always happen. SSA informed us that because
of our review, it found and corrected five cases and established procedures to make sure these cases are
returned for correction.
7
 RPC’s goal until 2011 was to complete cases within 14 calendar days. SSA suspended this goal in
May 2011 because of resource shortages and increasing workloads.
Page 5 - The Commissioner


    deficiency resolves disagreements. Additionally, the resolution should be policy-
    compliant because ODP oversees SSA’s disability policies.
•   National Data - The data from RPC cases give SSA the opportunity to improve the
    consistent application of policy nationwide by highlighting and addressing regional
    inconsistencies. When RPC staff identifies a policy issue raised in a number of RPC
    cases, they may refer the issue to the policy component, ask for clarification, or
    collaborate with the policy component to develop solutions to address the issue(s).
    RPC has used this approach to refer policy concerns related to onset, prisoner
    issues, failure to cooperate, and drug and alcohol addiction.
•   Trend Analysis and Policy Improvement - RPC staff conducts trend analysis to
    study data from the RPC database that highlight the policies most often cited in RPC
    cases. RPC reviewers then analyze those cases and the existing policy to gain
    insight into which aspects of the policy cause the most confusion for adjudicators.
    Working with the policy component, RPC staff helped develop solutions to address
    these issues, including policy revisions and training resources. 8
•   Database - Any SSA component can access the RPC database and use the search
    function to gather data and review cases involving a specific area, such as a body
    system or certain policy issue. That analysis can provide support for proposed
    regulatory policy changes.
•   Training - State DDSs, regional OQP sites, and regional Centers for Disability use
    the management information in the RPC database to identify national, regional, or
    State trends. Training directors search the RPC database for cases that can serve
    as real world examples for training of both new and experienced staff. ODP has
    also used RPC cases for training purposes. For example, many of the On-line
    Disability Training cases produced by ODP and the Office of Learning are former
    RPC cases that highlight a specific body system or impairment. SSA has used
    certain RPC cases to train users on the electronic Claims Analysis Tool and
    incorporated them into the Disability Examiner Basic Training Package produced by
    the Office of Learning.




8
  For an example of how SSA has used RPC data to address regional inconsistencies, in January 2012,
ODP announced a series of regional Medical Consultant and Psychological Consultant Policy Dialogues
to discuss disability policy consistency among the regions. ODP used data from RPC and the Policy
Feedback System, as well as feedback from OQP reviews, to identify trends over time as opportunities to
increase consistency.
Page 6 - The Commissioner


RESPONSES TO QUESTIONS ABOUT RPC

There were 61 adjudicating offices—
including 52 State DDSs and                       Chart 1: Satisfaction with the RPC Process –
9 Federal Units—subject to OQP                               76 Responding Offices
                                                 Very
review. 9 These offices used the RPC             Satisfied                              Satisfied
process to resolve disagreements                 30 (40%)                               32 (42%)
with deficiencies. We asked
questions about the RPC process to
these 61 adjudicating offices, along
with the 10 Centers for Disability in
                                                  Very
SSA Regional Offices and the                      Dissatisfied
11 regional OQP sites—82 offices in               1 (1%)                        Neither Satisfied
total.                                                                          or Dissatisfied
                                                                 Dissatisfied   7 (9%)
                                                                 6 (8%)
We received responses from
76 offices and shared the responses
with SSA after removing all information that would identify any specific office. Although
most offices were satisfied or very satisfied with RPC (82 percent, as shown in Chart 1),
many also thought SSA could improve the process.

                            All adjudicating offices reported using the RPC process to
    Adjudicating            resolve disagreements with OQP-cited deficiencies, and
    Offices’ Use of RPC     several offices reported using the process to ask for policy
                            clarifications. Management and quality reviewers in the
adjudicating office generally decide whether to use RPC for a particular case, but many
offices also involve disability examiners in the process.

                          Before submitting a case to RPC, the adjudicating component
    Adjudicating          may use the informal rebuttal process to clarify issues and try
    Offices’ Use of       to resolve disagreements directly with the OQP regional site.
    Informal Rebuttals    For example, one office stated this was useful in cases where
                          OQP made an obvious mistake, such as missing a piece of
evidence or the deficiency was clearly not policy-compliant.




9
  The Federal Units in Boston and Seattle work through State DDS processing systems, and OQP
reviews their determinations as part of the State DDS samples. The Office of International Operations is
not subject to OQP review, and the Denver Federal Unit is not yet subject to OQP review.
Page 7 - The Commissioner


As shown in Chart 2, most adjudicating            Chart 2: Use of Informal Rebuttals –
offices used the informal rebuttal process.       55 Responding Adjudicating Offices
Additionally, 16 offices (29 percent)
believed the process works well, but             Use
12 offices (22 percent) believed the             Sometimes
                                                 36 (65%)
individual OQP offices were inconsistent in
responding to informal rebuttals and some
appeared to be more open to early
resolutions. Some adjudicating offices
sent disagreements directly to RPC
without considering informal rebuttals. For
example, some offices reported the               Use Often
                                                 14 (26%)                   Never Use
following.                                                                  5 (9%)

•   “Each OQP branch tends to employ
    different techniques in responses to informal rebuttals. A more unified approach to
    the informal process would be beneficial to the DDS and would potentially
    encourage DDS to use this process more frequently. Since the rollout of the
    national review process, we have found some OQP components to be less receptive
    to the informal review process than others. Some offices will gladly discuss the error
    and provide additional rationale on error citation. Others tend to delay response and
    then only provide a final decision and not additional clarification. This current
    process does not promote the DDS/OQP partnership and often jeopardizes the
    DDS’ ability to utilize the RPC process within the designated timeframes.”
•   “We contact the DQB to try to resolve the deficiency informally if it appears that a
    case fact was overlooked or if the rebuttal issue is fairly simple. We have
    experienced mixed success with this approach, but usually resolve our concerns
    with DQB (for better or worse) without involving RPC at all on these cases.
    Sometimes the deficiency is removed and other times it stands, but we usually do
    not feel a need to RPC after discussions with the DQB.”
•   “Our one concern with this informal process is that it seems each DQB office has a
    different process in how they want these informal questions handled. It would be
    helpful if there was one way for each DQB office.”
•   “We have contacted DQBs with varying success. Some have been cordial and
    responsive while others have been slow in responding and dismissive. Ideally,
    whether they agree or not, the tone is important as is a prompt response.”
•    “We have mixed feedback in this area as some branches have had success with
    informally contacting DQB while others have been advised by DQB to submit an
    RPC.”

Recommendation 1: We recommend SSA reduce any inconsistencies between OQP
regional sites when receiving or responding to informal rebuttals.
Page 8 - The Commissioner



                            The RPC database contains information on all RPC cases. It
 RPC Database               is available to all SSA and DDS components. As shown in
                            Chart 3, most of 76 responding offices reported using the
RPC database, and 56 offices (74 percent) used it for training and research purposes.
One office reported its internal quality
reviewers used it as a reference guide                  Chart 3: Use of RPC Database –
when conducting internal quality reviews.                   76 Responding Offices
                                                          Use Database
However, 39 offices (51 percent) thought                  72 (95%)
the database would be more helpful if the
search capabilities were improved. An
office suggested adding drop down boxes
or free form search capabilities for key
words or phrases and having someone
review all the RPC responses for
consistency. 10 This responder also
                                                                                  Do Not Use
thought there were some inconsistencies                                         Database 4 (5%)
in RPC decisions—some minor but some
that clearly contradicted each other.

                            Many offices
 RPC Effect on
                            thought the RPC               Chart 4: RPC Helped Clarify Policy
 Policy Clarification
                            had helped                     Issues? – 76 Responding Offices
clarify policy issues, as shown in Chart 4.                                                 Yes 52
For example, one office said the process                                                    (69%)
had clarified issues on a national level that
may have been interpreted differently at
the regional level, and another office
stated that OQP reviews had become
more consistent because of the RPC
process.
                                                          No
                                                          7 (9%)                        Mixed
However, several offices thought RPC had                                17 (22%)
mixed success or no effect on policy
clarification. Several offices reported the
RPC resolutions did not always appear to be consistent, some thought the RPC
responses sometimes made policy issues more confusing, and others thought the
responses were too case-specific to be useful for clarifying policy.


10
  In December 2011, SSA informed us the RPC database has drop down boxes under the “Search Data”
page, which allows users to search on a variety of body systems, policy issues, dates, office locations,
and other factors. For example, a user can search to find all RPC cases submitted by a specific DDS in
FY 2011 that involved the musculoskeletal system and the policy issue of “credibility” (there were 4 such
cases). Further, the RPC tool offers a free form search capability for key words or phrases under the
“Text Search” option.
Page 9 - The Commissioner


 RPC Effect on               Although many offices thought the RPC had improved overall
 Overall Quality             quality, there were also many differing opinions, as shown in
                             Chart 5. For example, several offices said RPC had helped
decrease regional differences in how and when OQP offices cited deficiencies, and
other offices thought the process had helped clarify policies at the national level, which,
in turn, had a positive effect on quality. A few offices said that OQP offices were more
judicious in citing deficiencies and ensuring
                                                     Chart 5: RPC’s Effect on Overall Quality –
deficiencies were more articulate and well-
                                                              76 Responding Offices
supported. Many responders said RPC had
no impact on quality, but they were generally
                                                                  Improved 55 (72%)
referring to their own office’s quality reports.

However, several offices said the RPC
process had damaged overall quality by
establishing “unofficial” policy guidance that
was not always consistent with official SSA
policy; highlighting regional differences in           Negative                        No
                                                       impact      Unable to           impact
processing but not effectively working toward          3 (4%)                          9 (12%)
                                                                   tell      Mixed
consistency; and raising reported accuracy                         4 (5%)    5 (7%)
rates by rescinding deficiencies on cases that
did not comply with SSA policy.

 RPC User Likes and         We asked all offices what they liked and disliked about the
 Dislikes                   RPC process. Tables 1 and 2 show the most frequent
                            responses from the 76 offices that answered our questions.


             Table 1: What do you like about RPC?                 Number     Portion

          Disagreements resolved by an impartial third party           45        59%
          Quick response/turnaround                                    40        53%
          More consistency in national policy                          28        37%
          Nationwide database of RPC outcomes                          19        25%
          Improvement over the former rebuttal process                 14        18%
          Having a completely electronic process                       14        18%
          RPC responses and write-ups                                   7         9%
          Having the outcomes decided by a team                         7         9%
          Gives DDSs the chance to interact with SSA                    3         4%
Page 10 - The Commissioner


              Table 2: What do you not like about RPC?                Number   Portion
             Rescinding errors when OQP cited wrong type of
                                                                          14      18%
             deficiency
             Process when RPC does not reach consensus                    11      15%
             Not all participants read case before staffing               10      13%
             No checks or balances on RPC                                  9      12%
             RPC tends to conduct “de novo” reviews (or
                                                                           8      11%
             re-adjudicate the claim from scratch)
             Medical or policy experts not regular part of staffing        8      11%
             Recent increase in RPC response time                          7       9%
             Having to complete referral forms                             6       8%
             Inadequate RPC staff                                          5       7%
             Inconsistencies between regional OQP sites                    4       5%
             The expedited process                                         4       5%

As shown in Table 2, 14 offices—including adjudicating offices, regional OQP sites, and
regional Centers for Disability—did not like RPC’s objective to rescind errors when OQP
cited the wrong type of deficiency. We asked SSA’s Office of the General Counsel
whether this process was consistent with the regulations that define DDS performance
accuracy. 11

The Office of the General Counsel found the RPC process and its objectives were
distinct from the Agency’s quality review functions of DDS performance accuracy. The
RPC resolution provides clarification and ensures policy compliance by subsequent
adjudicators and reviewers. Thus, issues or problems found during the RPC dispute
resolution process do not count against a DDS’ performance accuracy because the
(1) error was not identified during OQP’s review of the sample cases and (2) outcome of
the dispute resolution process relevant here is a non-appealable final decision of the
Commissioner on the dispute, not a case review. 12

     Suggestions to             We asked all offices for suggestions to improve the RPC
     Improve RPC                process. Table 3 shows the most frequent responses from
                                the 76 offices that answered our questions.




11
     20 C.F.R. §§ 404.1640 through 1645 and 416.1040 through 1045.
12
     POMS, DI 30007.100B (effective November 3, 2010).
Page 11 - The Commissioner


            Table 3: Suggestions to Improve RPC              Number   Portion
         Better communications in RPC decisions and
                                                                 17       22%
         write-ups
         Publish national data and trends                        10       13%
         Establish an appeal process for RPC decisions            9       12%
         All participants should read case before staffing        7        9%
         Allow participation by phone or video                    6        8%
         Rescind deficiency if RPC cannot reach
                                                                  6        8%
         consensus
         Identify if medical or policy expert was involved        5        7%
         Encourage informal rebuttals with regional OQP
                                                                  3        4%
         sites
         Address only issue being appealed (not the entire
                                                                  3        4%
         case)
         Allow RPC for more situations                            2        3%

Recommendation 2: We recommend SSA analyze and consider enhancements to the
RPC process based on feedback from the RPC stakeholders.

RPC STAFF LEVELS

Several adjudicating offices, OQP regional offices, and Centers for Disability expressed
concerns with RPC staffing and its effect on workloads, such as longer processing
times. ODP also expressed concerns with increasing workloads and the inability to
replace or hire additional staff. Therefore, RPC staff spends most of its time reviewing
individual cases rather than working on RPC’s other objectives, such as identifying
trends and needs for policy clarification and training.

Recommendation 3: We recommend SSA consider appropriate staff levels for RPC to
carry out its objectives.

RPC BUSINESS PROCESS REVIEW

We met with some, but not all, ODD and OQP representatives to RPC. Some
representatives expressed concerns with how the team staffs cases and votes on the
outcomes.

SSA informed us it formed an RPC Business Process Review workgroup in
January 2012 to address these concerns as well as the other issues identified during
our review and the recommendations in our report. The workgroup, composed of
representatives from ODP, OQP, and ODD, will make recommendations to Agency
management for any changes necessary in the RPC business process.
Page 12 - The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
The RPC process has improved the way SSA resolves disagreements with deficiencies
cited by OQP. However, based on feedback from stakeholders, SSA should enhance
the process. We summarized our conclusions and recommendations below.

1. Some adjudicating offices are referring disagreements to RPC that could be
   resolved at the regional level because they believe OQP offices are inconsistent in
   responding to informal rebuttals. (See details on pages 6 and 7.) Therefore, we
   recommend SSA reduce any inconsistencies between OQP regional sites when
   receiving or responding to informal rebuttals.

2. Adjudicating offices, OQP regional sites, and the Centers for Disability in the
   Regional Offices provided several suggestions for improving the RPC process.
   (See details on pages 8 through 11.) Therefore, we recommend SSA analyze and
   consider enhancements to the RPC process based on feedback from the RPC
   stakeholders.

3. Several offices expressed concerns with RPC staffing and its effect on workloads,
   such as longer processing times. (See details on page 11.) Therefore, we
   recommend SSA consider appropriate staff levels for RPC to carry out its objectives.

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix E for the Agency’s comments.




                                        Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – The Social Security Administration’s Quality Reviews of Disability
             Determinations

APPENDIX C – Request for Program Consultation Data

APPENDIX D – Scope and Methodology

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
CDR           Continuing Disability Review
DDS           Disability Determination Services
DPB           Disability Processing Branch
DPU           Disability Processing Unit
DQB           Disability Quality Branch
FY            Fiscal Year
ODD           Office of Disability Determinations
ODP           Office of Disability Programs
OQP           Office of Quality Performance
PER           Pre-effectuation Review
POMS          Program Operations Manual System
Pub. L. No.   Public Law
QA            Quality Assurance
RPC           Request for Program Consultation
SSA           Social Security Administration
U.S.C.        United States Code
                                                                                   Appendix B

The Social Security Administration’s Quality
Reviews of Disability Determinations
The Social Security Administration (SSA) provides Disability Insurance and
Supplemental Security Income payments to eligible individuals. 1 The disability
determination services (DDS) are State agencies that determine whether individuals are
disabled under SSA’s criteria. 2 SSA’s Office of Quality Performance (OQP) reviews
samples of all disability claims, as required by the Social Security Act. 3 Below are two
examples of cases that were subject to quality review.

•     In September 2009, a DDS found a 54-year-old man disabled because of a shoulder
      injury. The adjudicator determined that his impairment prevented him from returning
      to his former work in construction as well as any other type of work in the national
      economy. In October 2009, OQP returned the case to the DDS and cited a
      decisional deficiency. The quality reviewer instructed the DDS to change the
      determination to a denial because the claimant could perform a wide range of work
      and was not disabled.

•     In another example, one DDS denied a claim for a 3-year-old boy with a speech
      delay in October 2009. OQP returned the case to the DDS and cited a
      documentation deficiency because there was a possible mental impairment that was
      not developed.

Table B-1 gives details about the types of OQP reviews, including the Pre-effectuation
(PER) and Quality Assurance (QA) reviews.




1
  Title II—or Old-age, Survivors and Disability Insurance—benefits replace some of the earnings lost due
to the retirement, disability, or death of a worker. Title XVI—or Supplemental Security Income—payments
provide a minimum level of income to financially needy individuals who are aged, blind, or disabled.
Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
2
  The DDSs are State agencies that determine disability under SSA’s criteria in each of the 50 States plus
the District of Columbia and Puerto Rico. Social Security Act §§ 221 (a)(2) and 1633 (a), 42 U.S.C.
§§ 421 (a)(2) and 1383b(a). See also 20 C.F.R. §§ 404.1603(a) and 416.1003(a). There are also SSA
Federal units that assist the DDSs with processing disability claims, located in each of SSA’s 10 regions
plus 3 offices at SSA Headquarters—the Offices of Disability Operations, Medical and Vocational
Expertise, and International Operations.
3
    Social Security Act §§ 221(c) and 1633(e), 42 U.S.C. §§ 421(c) and 1383b(e).


                                                   B-1
                         Table B-1: Types of Disability Quality Reviews
                                                                                           Counts for
    Name of              Number of
                                            Authority for Review          Reporting       Performance
    Review                Reviews
                                                                                           Accuracy?
PER Title II and     50 percent of         Pub. L. No. 96-265,           Monthly;         No
Concurrent           allowances; cases     enacted in 1980. The          fiscal year to
                     selected by a         Social Security Act           date.
                     predictive model.     § 221(c) requires that
                                           SSA review at least
                                           50 percent of favorable
                                           Title II and concurrent
                                           Title II-XVI initial and
                                           reconsideration DDS
                                           determinations.
PER Title XVI        50 percent of         Pub. L. No.109-171,           Monthly;         No
Adult                allowances; cases     enacted on February 8,        fiscal year to
                     selected by a         2006. The Social              date.
                     predictive model.     Security Act
                                           § 1633(e)(1) requires a
                                           review of at least
                                           50 percent of favorable
                                           Title XVI adult initial and
                                           reconsideration DDS
                                           determinations.
QA Review of         70 allowances and     20 C.F.R. §§ 404.1640         Performance      Yes
Initial Disability   70 denials per        through 1670. The             Accuracy
Determinations       calendar quarter      results of this review are    based on
                     per State. These      used to measure state         calendar
                     volumes ensure        agency performance            quarters per
                     statistically valid   accuracy.                     20 C.F.R.
                     findings for all                                    § 404.1645;
                     DDSs, irrespective                                  Rolling
                     of size.                                            3-month
                                                                         reports
                                                                         published
                                                                         monthly.
QA Review of         20 allowances and     This review is                Monthly,         No
Reconsideration      20 denials per        discretionary.                rolling
Disability           calendar quarter                                    12-month
Determinations       per State.                                          basis.
QA Review            70 continuances       Pub. L. No.96-265             Monthly,         No
Continuing           and 70 cessations     requires the review of a      rolling
Disability Review    per calendar          sufficient number of          6-month
(CDR)                quarter per State.    favorable CDR                 basis.
Determinations                             determinations to assure
                                           a high level of accuracy.
Targeted Denial      Approximately         This review is                Monthly;         No
Review               50,000 cases per      discretionary.                fiscal year to
                     year.                                               date.



                                                  B-2
                                                                                    Appendix C

 Request for Program Consultation Data
 In September 2006, the Social Security Administration (SSA) began using the Request
 for Program Consultation (RPC) process in the Office of Disability Programs (ODP) to
 resolve disagreements with deficiencies cited by the Office of Quality Performance
 (OQP). As shown in Table C-1, in Fiscal Years (FY) 2008 through 2011, State disability
 determination services (DDS), Federal Disability Processing Branches (DPB), and
 Disability Processing Units (DPU) referred over 4,000 cases for RPC review. 1

             Table C-1: RPC Cases by Outcomes – FYs 2008 through 2011
        Category              FY 2008        FY 2009         FY 2010          FY 2011           Total
ODP Rescinds Deficiency      193    24%     188     19%      171    16%      262     21%      814       20%
ODP Rescinds Deficiency
– Additional Issues          137    17%      49      5%       35     3%       92      7%      313       8%
Raised
ODP Affirms OQP – DDS
                             323    40%     449     46%      512    48%      525     43%    1,809       44%
Disagrees with Error
ODP Affirms OQP – DDS
Concedes OQP Error –          29     4%      23      3%       27     2%       24      2%      103       3%
Additional Issues Raised
No Deficiency Cited            6     1%      10      1%        7     1%         3     1%       26       1%
OQP rescinded before
                              23     3%      30      3%       36     3%       53      4%      142       3%
RPC Staffing
Excluded from RPC
                              13     2%      18      2%       16     2%       24      2%       71       2%
process
ODP Rescinds – Wrong
                              71     9%     208     21%      267    25%      242     20%      788       19%
Deficiency Cited
Total                        795   100%     975   100%     1,071   100%    1,225    100%    4,066    100%




 1
   The DDSs are State agencies that determine disability under SSA’s criteria in each of the 50 States plus
 the District of Columbia and Puerto Rico. There are also SSA Federal units that assist the DDSs with
 processing disability claims, located in each of SSA’s 10 regions plus 3 offices at SSA Headquarters—the
 Offices of Disability Operations, Medical and Vocational Expertise, and International Operations.


                                                   C-1
Table C-2 shows the RPC cases in FYs 2008 through 2011 by DDS and Federal Units.

                      Table C-2: RPC Cases by Adjudicating Office
                                 FYs 2008 Through 2011
              DDS/DPB/DPU        FY 2008    FY 2009   FY 2010   FY 2011   Total
   Alabama                            21         13        9        13       56
   Alaska                              1          0        4         4        9
   Arizona                            24         11       23        11       69
   Arkansas                            9         12       13        10       44
   California                         34         25       34        59      152
   Colorado                           25         39       29        40      133
   Connecticut                         5         11       14        29       59
   Delaware                            7          8        8        21       44
   District of Columbia                9          2        2         5       18
   Florida                            20         21       32        23       96
   Georgia                            12         38       46        27      123
   Hawaii                             14         16       11        19       60
   Idaho                              11          6        5         7       29
   Illinois                           18         32       31        30      111
   Indiana                            17          9       20        29       75
   Iowa                               12         14       12        18       56
   Kansas                             11         23       26        22       82
   Kentucky                            6         27       24        29       86
   Louisiana                           9         21       31        32       93
   Maine                               1          7        5        11       24
   Maryland                           20         29       15        31       95
   Massachusetts                     119         79       69        69      336
   Michigan                           23         77       82        61      243
   Minnesota                           9          3        7        14       33
   Mississippi                        23         13       12         9       57
   Missouri                           20         33       32        34      119
   Montana                             4          2        1         1        8
   Nebraska                           16         18       11        11       56
   Nevada                             17         16       22        21       76
   New Hampshire                       2         30        4         8       44
   New Jersey                         10          5       16        40       71
   New Mexico                          3         16       17        13       49
   New York                           14         26       40        57      137
   North Carolina                     16          9       11         4       40




                                           C-2
                    Table C-2: RPC Cases by Adjudicating Office
                               FYs 2008 Through 2011
        DDS/DPB/DPU                FY 2008    FY 2009    FY 2010   FY 2011   Total
North Dakota                            2            3        0         1        6
Ohio                                   15          27        38        52      132
Oklahoma                                8          20        26        33       87
Oregon                                  6            5        4         8       23
Pennsylvania                           28          28        27        41      124
Puerto Rico                             6            4       13         6       29
Rhode Island                            7            6        3         1       17
South Carolina                         16            9       14        17       56
South Dakota                            1            9       12         9       31
Tennessee                               6          19        20        22       67
Texas                                  37          36        72        68      213
Utah                                    8            9        7         9       33
Vermont                                 8          17        12         4       41
Virginia                               39          40        29        30      138
Washington                             31          30        32        42      135
West Virginia                           2            5        4         7       18
Wisconsin                              13          17        22        29       81
Wyoming                                 0            0        1         0        1
North Eastern Payment Service           0            0        1         1        2
Center (PSC) DPB, New York
Mid-Atlantic PSC DPB,                   0            0       13        16       29
Philadelphia
Office of Disability Operations,        0            0        0         0        0
Baltimore
Great Lakes PSC DPB,                    0            0        1         0        1
Chicago
Mid-America PSC DPB,                    0            0        0         1        1
Kansas City
South Eastern PSC DPB,                  0            0        2         8       10
Birmingham
Western PSC DPB,                        0            0        0         3        3
San Francisco
Dallas DPU                              0            0        0         2        2
OMVE                                    0            0        0         3        3
Total                                 795          975     1,071     1,225    4,066




                                             C-3
Table C-3 shows the RPC cases in FYs 2008 through 2011 by the body system and the
original determination of the adjudicating office.

          Table C-3: RPC Cases by Body System FYs 2008 Through 2011
                             Allowances/                               Total
        Body System         Continuances         Denials/ Cessations    RPC        Portion
                                                                       Cases
Musculoskeletal System                 803                      416     1,219        (30%)
Special Senses                         183                       49       232         (5%)
Respiratory System                     150                       44       194         (4%)
Cardiovascular System                  158                      106       264         (6%)
Digestive System                           56                    25        81         (2%)

Genitourinary Impairments                  17                      4       21         (1%)

Hematological Disorders                      9                     3       12         (1%)

Skin Disorders                             21                      2       23         (1%)

Endocrine System                           77                    49       126         (3%)

Impairments that Affect                      7                     1           8      (1%)
Multiple Body Systems
Neurological                           185                      100       285         (7%)

Mental Disorders                       806                      430     1,236        (30%)

Malignant Neoplastic                   109                       24       133         (3%)
Diseases
Immune System                              88                    34       122         (3%)

Growth Impairment                            6                     5       11         (1%)

Special/Other                              54                    45        99         (2%)

Total                                 2,729                   1,337     4,066      (100%)




                                       C-4
                                                                        Appendix D

Scope and Methodology
To accomplish our objective, we:
•     Reviewed applicable sections of the Social Security Act and the Social Security
      Administration’s (SSA) regulations, policies, and procedures as well as other
      applicable Federal regulations.
•     Gathered and evaluated information on SSA’s Request for Program Consultation
      (RPC) process by contacting officials and staff from the Offices of Disability
      Programs, Disability Determinations, and Quality Performance (OQP) as well as the
      Centers for Disability in each Regional Office.
•     Reviewed claims that went through the RPC process in Fiscal Year (FY) 2010.
•     Reviewed RPC statistics for cases completed in FYs 2008 through 2011.
•     Developed questions to obtain information about SSA’s RPC process. Then, we
      contacted 82 offices with these questions—the 52 disability determination services,
      9 Federal units subject to OQP review, the 10 Centers for Disability in SSA’s
      Regional Offices, and the 11 regional OQP sites.
•     Analyzed and compiled responses to our questions on RPC.
•     Omitted all identifying information from responses and provided them to SSA to use
      in improving the RPC process.
•     Obtained a legal opinion from SSA’s Office of the General Counsel on whether
      RPC’s objective to identify and rescind deficiencies incorrectly cited by OQP was
      consistent with the regulations that define disability determination services’
      performance accuracy. 1

We performed our review between July 2011 and February 2012 in Boston,
Massachusetts. The principal entity audited was SSA’s Office of Disability Programs
under the Office of the Deputy Commissioner for Retirement and Disability Policy. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




1
    20 C.F.R. §§ 404.1640 through 1645 and 416.1040 through 1045.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      April 4, 2012                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis    /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Resolving Issues Identified During the Social
           Security Administration’s Quality Reviews Of Disability Determinations”(A-01-11-11119)—
           INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-7284.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“RESOLVING ISSUES IDENTIFIED DURING THE SOCIAL SECURITY
ADMINISTRATION’S QUALITY REVIEWS OF DISABILITY DETERMINATIONS”
(A-01-11-11119)


Recommendation 1

Reduce any inconsistencies between the Office of Quality Performance regional sites when
receiving or responding to informal rebuttals.

Response

We agree.

Recommendation 2

Analyze and consider enhancements to the Request for Program Consultation (RPC) process
based on feedback from the RPC stakeholders.

Response

We formed an RPC Business Process Review several months ago that will address this
recommendation.

Recommendation 3

Consider appropriate staff levels for RPC to carry out its objectives.

Response

Due to budget restrictions, we are not able to replace staff who leave the agency. When
sufficient funding becomes available, we will evaluate the staffing level of the RPC.




                                                E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Senior Auditor

   Frank Salamone, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-11-11119.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
